EXHIBIT I

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

2018 WL 5045768
United States District Court, S.D. Ohio, Eastern
Division.
Cynthia MADEJ, et al., Plaintiffs,
v.
Athens County Engineer Jeff MAIDEN,
Defendant.
Case No. 2:16-cv-658
|
Signed 10/12/2018
|
Filed 10/17/2018
Attorneys and Law Firms
David T. Ball, Rosenberg & Ball Co., LPA, Granville,
OH, Sky Pettey, LaVelle and Associates, Athens, OH,
Fazeel S. Khan, Haynes Kessler Myers & Postalakis,
Worthington, OH, for Plaintiffs.
Maribeth Meluch, Mark David Landes, Molly R. Gwin,
Isaac Wiles Burkholder & Teetor, LLC, Columbus, OH,
for Defendant.

memorandum in opposition (Pl. Mem. Opp., ECF No.
120), Defendant’s Reply (Def Reply, ECF No. 134),
Defendant’s motion in limine to exclude the testimony of
Dr. John Molot (Def. MIL, ECF No. 106), Plaintiffs’
response (Pl. Response MIL, ECF No. 126), Defendant’s
Reply (Def. Reply MIL, ECF No. 134), Defendant’s
motion in limine to exclude the testimony of Dr. Barbara
Singer and Dr. Allan Lieberman (Def.’s MIL, ECF No.
107), Plaintiffs’ response (Pl. Response MIL, ECF No.
125), Defendant’s Reply (Def Reply MIL, ECF No. 133);
Defendant’s motion in limine to exclude Plaintiffs’
engineering experts (Def. MIL, ECF No. 108), Plaintiffs’
response (Pl. Response MIL, ECF No. 124), and
Defendant’s Reply (Def. Reply MIL, ECF No. 132).
Additionally, Defendant has filed a Motion for Leave to
File a Sur-reply (Def. Mot. Sur-reply, ECF No. 140),
Plaintiffs have filed a response (Pl. Response Sur-reply,
ECF No. 144), and Defendant has filed a Reply (Def.
Reply, ECF No. 145). The issues are joined and ripe for
consideration. For the reasons that follow, Defendant’s
motions to exclude the opinions of Dr. John Molot (Def.’s
MIL, ECF No. 106), and Dr. Barbara Singer and Dr. Allan
Lieberman (Def.’s MIL, ECF No. 107) are well-taken, and
are GRANTED. As a consequence of granting those
motions, Defendant’s motion for summary judgment (Def.
Mot. S.J., ECF No. 117) is also well-taken and is
GRANTED, and the remaining motions are DENIED as
MOOT.

OPINION AND ORDER
I. BACKGROUND
EDMUND A. SARGUS, JR., CHIEF UNITED STATES
DISTRICT JUDGE
*1 This matter is before the Court on Plaintiffs Cynthia
and Robert Madej’s (“Ms. Madej,” “Mr. Madej”, or
collectively, “Plaintiffs”) Motion for Partial Summary
Judgment (Pl.’s Mot. S.J., ECF No. 109), Defendant’s
memorandum in opposition (Def. Mem. Opp., ECF No.
119), Plaintiffs’ Reply (Pl. Reply, ECF No. 135),
Plaintiffs’ motion in limine to exclude the testimony of
Jonathan Raab (Pl. MIL, ECF No. 138), Defendant’s
response (Def. Response MIL, ECF No. 141), and
Plaintiffs’ Reply (Pl. Reply MIL, ECF No. 143). Also
before the Court are Defendant’s Motion for Summary
Judgment (Def. Mot. S.J., ECF No. 117), Plaintiffs’

This dispute arose out of the road resurfacing “chip and
seal” or “chip seal” project on Dutch Creek Road in
Athens County, Ohio. (Third Am. Comp. ¶¶ 3, 4, ECF No.
16.) Residents complained that the dust on the road was
affecting their health, and as part of his statutory
obligation to maintain the roads of Athens County, the
Engineer decided to chip seal Dutch Creek Road (Def.
Mot. S.J., ECF No. 117, p. 10.)
Plaintiffs allege that the completion of the “chip and seal”
project within one mile of their residence could cause
Mrs. Madej serious physical harm or even death. (Id. at ¶¶
6, 7, 8, 11, 15, 23, 33, 39, 41, 42, 48.) Specifically,
Plaintiffs allege that “Cindi suffers from chemical
sensitivity, also known as environmental illness, which

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

1

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

renders many substances used in road paving highly toxic
to her, including but not limited to petrochemicals used in
‘chip and seal’ road surfacing.” (Id., at ¶ 4.) In support of
their claims, Plaintiffs rely on three medical experts, John
Molot, M.D., a Canadian physician whom they engaged
as an expert witness, and treating physicians Barbara
Singer, M.D. and Allan Lieberman, M.D. Discovery was
completed in June, 2018, and the issues were fully joined
on September 11, 2018.

A. The State Court Preliminary Injunction
*2 On September 15, 2015, Plaintiffs filed an action in
state court against the Athens County Engineer, Jeff
Maiden, in the Athens County Court of Common Pleas
seeking “a temporary restraining order, preliminary
injunction, and permanent injunction” to stop the paving
project. (ECF No. 1-1, PgId 10). Judge Patrick Lang
granted a temporary restraining order, and then replaced
the temporary restraining order with a preliminary
injunction on September 23, 2015, following a hearing on
the preliminary injunction on September 21, 2015.
(Decision, ECF No. 16, PgId 144.) The state court
injunction remains in place, and Dutch Creek Road has
not been resurfaced. (Def. Mot. S.J., ECF No. 117, p. 2.)
During the hearing on the preliminary injunction, the
Court heard testimony from Mr. Madej, and from Ms.
Madej, who was permitted to testify via telephone,
including testimony that Ms. Madej sleeps “in a small
glass-lined room, with an old recliner being the only
furniture she feels her health can tolerate. In winter, the
only heat source in the room is a string of incandescent
light bulbs, augmented on extremely cold nights by the
addition of glass bottles filled with hot filtered water.”
(Decision, ECF No. 16, PgId 145-46.) The Court also
heard testimony from Dr. Barbara Singer, who testified
that Ms. Madej “is in extremely poor health, and suffers
from ailments including anemia, several vitamin
deficiencies, protein deficiency, anxiety and depression.”
(Id., PgId 146.) “Dr. Singer testified that in her
professional medical opinion, these symptoms are caused
by extreme chemical sensitivity, and that Mrs. Madej
would likely suffer severe physical injury or death if the
project moved forward at the current time. Finally, Dr.
Singer testified that hospitalization is not a viable option,
because the plastics and chemicals used at hospitals
would exacerbate Mrs. Madej’s illness.” (Id.) In granting
the preliminary injunction, the Court explained:

While there may be some cause to
doubt the diagnosis, it is undisputed
that Mrs. Madej is a very sick
woman. The question of what is
causing her symptoms is one for
medical science. The Court is
limited to deciding this Motion
based only upon the facts in
evidence before it, and the only
medical testimony offered at
hearing is that Mrs. Madej is likely
to suffer serious injury or death if
the project moves forward at the
present time. In the absence of
contrary medical opinion, the Court
is not willing to disregard Dr.
Singer’s testimony outright.

(Id., PgId 149-50.) On June 30, 2016, Plaintiffs filed a
second amended complaint adding federal claims, and on
July 7, 2016, Defendant removed the case to this court.
(ECF No. 1.)

B. Plaintiffs’ Third Amended Complaint
Plaintiffs filed a third amended complaint on October 18,
2016 (“complaint”) asserting claims arising under the Fair
Housing Amendments Act,
42 U.S.C. § 3601 et seq.,
and the Americans with Disabilities Act, 42 U.S.C. §
12101 et seq., as well as state-law claims. In addition to
monetary relief, Plaintiffs seek an order enjoining
Defendant Athens County Engineer Jeff Maiden
(“Engineer” or “Defendant”) from completing the road
resurfacing “chip and seal” project, and a declaratory
judgment to the effect that “should the defendant proceed
with the threatened chip and seal project on the section of
Dutch Creek Road extending from S.R. 550 to Stanley
Road Mrs. Madej will suffer serious physical harm or
death and that the Defendant will be liable for civil assault
and battery and/or wrongful death.” (Third Am. Comp.,
ECF No. 16, PgId 138-39.) In support of the injunction,
Plaintiffs attached as Exhibit 1 to the complaint an
affidavit dated September 15, 2015, from Dr. Barbara
Singer, Ms. Madej’s treating physician, declaring that Ms.
Madej “suffers from chronic chemical sensitivity resulting
from toxic exposure.” (Singer Aff., ECF No. 16, Ex. 1,
PgId 140.) “She also currently suffers from a

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

2

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

life-threatening anemic condition as evidenced by very
low hemoglobin levels and severe vitamin B12
deficiency, as well as extreme weight loss and
cardiometabolic decompensation. She is in a precarious
state and even small exposures to chemical stressors
create a serious hazard for her.” (Id.) Dr. Singer stated
that Ms. Madej “requires limited exposure or avoidance
of many common materials and chemicals which include
but are not limited to: diesel, jet and other fuels, exhaust,
tar and asphalt, oil, herbicides and pesticides, smoke.”
(Id.) She stated that “[r]oadway construction and
maintenance activities are of particular concern.
Exposures, even in small amounts, to numerous volatile
organic compounds found in petrochemical products like
tar (e.g. anthracene, benzene, and phenols), many of
which outgas for months are dangerous and even
life-threatening for [Ms. Madej]. Potential impacts
include: difficulty breathing, heart attack, paralysis,
migraines, neurologic stress and damage.” (Id.)
Additionally, “[a]voiding exposure is crucial. [Ms.
Madej] is unable to relocate from her home due to the
severity and breadth of her sensitivities and the
specialized living environment she requires.” (Id.) “If
[Ms. Madej’s] road has a chip and seal or asphalt surface
(or other surfacing that contains volatile organic
compounds or toxins to which she is sensitive) especially
while she is already in a weakened state from her anemia
condition,
weight
loss,
and
cardiometabolic
decompensation it is my opinion to a reasonable degree of
medical certainty that she will suffer serious physical
harm or possible death.” (Id., PgId 141.)
*3 Count I seeks injunctive relief to prevent the paving of
Dutch Creek Road with asphalt or chip seal (Third Am.
Comp., p. 1); Count II claims civil assault, battery, and/or
wrongful death (Id., p. 4); Count III seeks a declaratory
judgment that, should Defendant proceed with chip seal
Ms. Majed will suffer assault, battery and/or death (Id., p.
5); Count IV claims a violation of the Fair Housing
Amendments Act,
42 U.S.C. § 3601, et seq. (Id.); and
Count V claims a violation of the Americans with
Disabilities Act, 42 U.S.C. § 12101, et seq. (Id., p. 6.)

II. EVIDENTIARY MOTIONS
Defendant moves to exclude the testimony of the Ms.
Madej’s treating physicians, Dr. Singer and Dr.

Lieberman (Def.’s MIL, ECF No. 107); Plaintiffs medical
expert, Dr. Molot (Def.’s MIL, ECF No. 106); and the
three engineers (Def.’s MIL, ECF No. 108). Plaintiff
moves to exclude the opinion testimony of Defendant’s
geotechnical engineer, Mr. Raab (Pl.’s MIL, ECF No.
138). Both parties move to exclude this proffered expert
testimony pursuant to
Daubert v. Merrell Dow
Pharmaceuticals, Inc., 509 U.S. 579 (1993). The parties
have fully briefed the issues, filed the relevant reports,
and have provided relevant portions of the experts’
depositions.

III. STANDARD
Federal Rule of Evidence 702 requires the trial judge to
perform a “gatekeeping role” when considering the
admissibility of expert testimony.
Daubert, 509 U.S.
at 597. The rule provides as follows:
A witness who is qualified as an expert by knowledge,
skill, experience, training, or education may testify in
the form of an opinion or otherwise if:
(a) the expert’s scientific, technical, or other
specialized knowledge will help the trier of fact to
understand the evidence or to determine a fact in
issue;
(b) the testimony is based on sufficient facts or data;
(c) the testimony is the product of reliable principles
and methods; and
(d) the expert has reliably applied the principles and
methods to the facts of the case.
Fed. R. Evid. 702. The Supreme Court explained the
gatekeeping role:

To
summarize:
“General
acceptance” is not a necessary
precondition to the admissibility of
scientific evidence under the
Federal Rules of Evidence, but the
Rules of Evidence—especially
Rule 702—do assign to the trial

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

3

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

judge the task of ensuring that an
expert’s testimony both rests on a
reliable foundation and is relevant
to the task at hand. Pertinent
evidence based on scientifically
valid principles will satisfy those
demands.

Daubert, 509 U.S. at 597,
The Sixth Circuit has described the district court’s
gatekeeping function under Daubert as an “obligation ...
to exclude from trial expert testimony that is unreliable
and irrelevant.”
Conwood Co., L.P. v. U.S. Tobacco
Co., 290 F.3d 768, 792 (6th Cir. 2002) (internal quotation
marks omitted). The gatekeeping role progresses in three
steps: First, the witness must be qualified according to his
or her “knowledge, skill, experience, training, or
education.”
In re Scrap Metal Antitrust Litig., 527
F.3d 517, 529 (6th Cir. 2008) (quoting Fed. R. Evid. 702).
Second, the expert’s testimony must be relevant, in that it
will help “the trier of fact to understand the evidence or to
determine a fact in issue.” Id. (same). On this point, the
Court’s inquiry focuses on whether the expert’s reasoning
or methodology can be properly applied to the facts at
issue. See
Daubert, 509 U.S. at 591-93. Third, the
testimony must be reliable. See
Kendall Holdings, Inc.
v. Eden Cryogenics, LLC, No. 2:08-cv-390, 2013 WL
53661 (S.D. Ohio Sept. 24, 2013). To determine whether
expert testimony is “reliable,” the court’s role, and the
offering party’s responsibility, “is to make certain that an
expert ... employs in the courtroom the same level of
intellectual rigor that characterizes the practice of an
expert in the relevant field.”
Kumho Tire Co., Ltd. v.
Carmichael, 526 U.S. 137, 152 (1999). Generally, the
expert’s opinions must reflect “scientific knowledge ...
derived by the scientific method,” representing “good
science.”
Daubert, 509 U.S. at 590, 593. Reliability
hinges on whether the reasoning or methodology
underlying the testimony is scientifically valid. See
Daubert, 509 U.S. at 590. The expert must ground his
or her testimony in the methods and procedures of science
and must entail more than unsupported speculation or
subjective belief. Id. Plaintiffs bear the burden to prove by
a preponderance of the evidence that the testimony is
reliable. Wellman v. Norfolk & Western Railway Co., 98
F. Supp.2d 919, 923 (S.D. Ohio 2000) (citing
In re

Paoli R.R. Yard PCB Litig., 35 F.3d 717, 744 (3d Cir.
1994) ).
*4 Daubert outlines several factors for courts to consider
to help determine reliability, including “testing, peer
review, publication, error rates, the existence and
maintenance of standards controlling the technique’s
operation, and general acceptance in the relevant
scientific community.” United States v. Langan, 263 F.3d
613, 621 (6th Cir. 2001) (citing
Daubert, 509 U.S. at
593-94). This inquiry is “flexible,” however, and
Daubert’s factors “do not constitute a definitive checklist
or test.”
Kumho Tire Co., 526 U.S. at 150 (emphasis in
original, citation and internal quotation marks omitted).
The Court’s gatekeeper role “is not intended to supplant
the adversary system or the role of the jury.” Wellman v.
Norfolk and Western Ry. Co., 98 F.Supp.2d 919, 924
(S.D. Ohio 2000) (citing
Daubert, 509 U.S. at 596).
Rather, it is “to keep unreliable and irrelevant information
from the jury because of its inability to assist in factual
determinations, its potential to create confusion, and its
lack of probative value.” Id.

IV. DISCUSSION
The inquiry of whether a witness qualifies as an expert
depends on his or her “knowledge, skill, experience,
training, or education.” Fed. R. Evid. 702. After review of
the expert’s qualifications, the district court makes this
determination as a preliminary question under Fed. R.
Evid. 104(a).
Kingsley Associates, Inc. v. Del-Met,
Inc., 918 F.2d 1277, 1286 (6th Cir. 1990). In doing so, the
district court “has broad discretion in the matter of the
admission or exclusion of expert evidence.” United States
v. Kalymon, 541 F.3d 624, 636 (6th Cir. 2008) (quoting
United States v. Demjanjuk, 367 F.3d 623, 633 (6th Cir.
2004) ). As a guiding principle, the decision of whether to
allow expert testimony depends on whether “it will assist
the trier of fact.” Id. “The issue with regard to expert
testimony is not the qualifications of a witness in the
abstract, but whether those qualifications provide a
foundation for a witness to answer a specific question.”
Berry v. City of Detroit, 25 F.3d 1342, 1351 (6th Cir.
1994).

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

4

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

*5
Baker v. Chevron USA, Inc., 680 F.Supp.2d 865
(2010).
A. Medical Causation
Plaintiffs’ complaint asserts that “[Ms. Madej] suffers
from chemical sensitivity, also known as environmental
illness, which renders many substances used in road
paving highly toxic to her, including but not limited to
petrochemicals used in ‘chip and seal’ road resurfacing.”
(Third Am. Comp., ¶ 4, ECF No. 16.) In cases involving
exposure to toxic substances, the plaintiff “must establish
both general and specific causation through proof that the
toxic substance is capable of causing, and did cause, the
plaintiff’s alleged injury.”
Pluck v. BP Oil Pipeline
Co., 640 F.3d 671, 677 (2011). Thus, causation has two
levels, general and specific, and a plaintiff must prove
both. As to specific causation, “[t]he plaintiff must show
that [s]he was exposed to a toxic substance and that the
level of exposure was sufficient to induce the
complained-of medical condition (‘commonly called the
‘dose-response’ relationship’).”
Valentine v. PPG
Indus., Inc., 158 Ohio App.3d 615, 821 N.E.2d 580, 588
n. 1 (2004).

General
causation
establishes
whether the substance or chemical
at issue is capable of causing a
particular injury or condition in the
general population. [
Terry v.
Caputo, 115 Ohio St.3d 351, 875
N.E.2d 72, 76 (2007) ]. If the
plaintiff
establishes
general
causation, then she must establish
specific
causation.
Specific
causation establishes whether the
substance or chemical in fact
caused the plaintiff’s medical
condition.
Id. at 77. In order to
establish both general causation
and specific causation, the plaintiff
must present expert medical
testimony.
Id. at 74 syl. 2.
Without expert medical testimony
on both general causation and
specific causation, a plaintiff’s
toxic tort claim will fail. Id. syl. 3.

It is well-established in the Sixth Circuit that employing a
differential diagnosis is an appropriate means to establish
causation. See
Best v. Lowe’s, 563 F.3d 171, 178-80
(6th Cir. 2009) (citing
Hardyman v. Norfolk & Ry.
Co., 243 F.3d 255, 260 (6th Cir. 2001) ). “Differential
diagnosis, or differential etiology, is a standard scientific
technique of identifying the cause of a medical problem
by eliminating the likely causes until the most probable
one is isolated.”
Hardyman, 243 F.3d at 260. “A
differential diagnosis seeks to identify the disease causing
a patient’s symptoms by ruling in all possible diseases
and ruling out alternative diseases until (if all goes well)
one arrives at the most likely cause.”
Tamraz v.
Lincoln Elec. Co., 620 F.3d 665, 674 (6th Cir. 2010).
“[C]ourts must apply the Daubert principles carefully in
considering [etiology]. ‘The ability to diagnose medical
conditions is not remotely the same ... as the ability to
deduce ... in a scientifically reliable manner, the causes of
those medical conditions.’
Gass v. Marriott Hotel
Servs., Inc., 501 F.Supp.2d 1011, 1019 (W.D. Mich.
2007), rev’d on other grounds,
558 F.3d 419 (6th Cir.
2009). Doctors thus may testify to both, but the reliability
of one does not guarantee the reliability of the other.”
Id. at 673-74.
In the case at bar, Plaintiffs assert that Ms. Madej suffers
from multiple chemical sensitivity (“MCS”) or
environmental illness. Plaintiffs claim that the
petrochemicals inherent in chip seal will undoubtedly
cause her serious physical injury or death. In order to
prevail on that theory, Plaintiffs must establish both
general and specific causation by proving by a
preponderance of the evidence that these petrochemicals
in chip seal are capable of causing and will in fact cause
the threatened injury.
Pluck, 640 F.3d at 677.

1. Dr.Molot
Plaintiffs retained as an expert witness Dr. John Molot, a
Canadian physician who also works on a Canadian task
force studying the gaps in science surrounding MCS,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

5

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

fibromyalgia, and chronic fatigue syndrome. (Molot Dep.,
ECF No. 95, PgId 3288, 3292.) Dr. Molot explained that
environmental medicine is not a recognized board
certification, and he is not board certified in any medical
specialty. (Id., PgId 3311.) Dr. Molot explained that MCS
is “diagnosed by the history and the history is somewhat
complex.” (Id., PgId 3302.) The history is the subjective
criteria as relayed by the patient. (Id.)
A. So part of that, of course, is to – there’s a pattern to
these patients that is common. Usually middle-aged
women. They have multiple system complaints. The
brain is the most common system involved. We usually
see complaints of pain, fatigue, poor cognition, mood
change. Tied for second place are probably respiratory
and/or gastrointestinal complaints. To start to see a
pattern. And respiratory complaints may – will include
both upper and lower respiratory system. Upper
respiratory, possibly partially explained by allergy.
Allergies are more common. I’m talking about classical
allergy. These patients will also complain of lower
respiratory symptoms. So asthma is more common. So
you start to identify patterns.
*6 Q. Is there an objective analysis that can be
performed for multiple chemical sensitivity? Does
blood work show multiple chemical sensitivity?
A. No. There are no blood tests that will demonstrate
chemical sensitivity. There are no clinical tests. So it’s
one of those conditions which is made by making sure
there is no other biological phenomena that could
explain these symptoms and – but like I said, there are
no biological markers.
***
Q. How do you control for – how do you control for the
other variables and determine that it’s asphalt in
patients that are exquisitely sensitive?
A. How do you control for that? You know, patients
make their observations based on, I smelled this and it
makes me sick. And that’s all we have.
(Id., PgId 3302-3303, 3324.) Dr. Lieberman explained
further that he has “no idea” which chemicals Ms. Madej
is reacting to, “because there’s no way to test it.” (Id.,
PgId 3338.)
Q. Okay and Ms. Madej’s complaints are not related
solely to the indoor quality of her home, correct?

A. Correct.
Q. They’re related to the use of chip seal and the
outdoor air quality, correct?
A. That’s what the issue is, but her medical condition is
that she is sensitive to a variety of different chemicals.
Q. Can you identify with any specificity what those
chemicals are?
A. Only from the history of what the patient identifies.
Q. Okay. There’s no way to test if she’s actually
sensitive to those?
A. No.
(Id., PgId 3339-3340.)
Q. ... What symptoms did you observe her demonstrate
when exposed to chip and seal?
A. I’ve never observed her demonstrate any symptoms.
I had not exposed her to chip seal.
Q. Okay. So it’s your testimony that diagnosis for this
condition is based strictly on a subjective criteria of
history and reported symptoms; is that correct?
A. Yes.
Q. And you’ve never observed her display sensitivity to
chip and seal, correct?
A. Correct.
Q. And you’ve never observed her display sensitivity to
asphalt products?
A. Correct.
Q. Have you ever observed her display sensitivity to
anything?
A. I spent a couple hours with her outside in a rural
environment on a lovely sunny day with a minimal
breeze if there was one at all. I don’t remember. It was
just a lovely day. And as a Canadian, I have great
appreciation of those lovely days. So that’s my memory
of it. And the purpose of being in that environment was
so that it would be tolerated by her, that I could talk to
her and do the physical exam. So that’s my experience
in being with Ms. Madej to make observations

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

6

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

clinically.

A. No.

... Sorry? Did she display sensitivity to anything to me?
No.

Q. So is it fair to say these are not life threatening
conditions?

(Id., PgId 3341-3342.) Dr. Molot explained that he based
his opinion on the “couple of hours” he spent with her
during that one clinical visit, and on clinical notes and
records from other physicians. (Id., PgId 3349.) He did
not recall asphalt sensitivity being mentioned in the
medical records until September of 2015. (Id., PgId
3350.)

A. No, they’re not. What they do create is a biological
response.

Q. Do you recall whether or not Dr. Lieberman ever
tested Ms. Madej for petroleum products?
A. That testing technique uses various mixtures. I do
not recall whether – what exactly he used, but some of
them represent petroleum products, could be natural
gas, could be something else again, I’m not sure where
he got his substances for testing from.
*7 Q. So could we say that that test would not be a
reliable biological indicator of MCS?
A. Yeah, the testing tor sensitivity using sublingual
challenges has not been documented as reliable for the
diagnosis of chemical sensitivity.
Q. And if Dr. Lieberman testified that he had no
medical evidence that Ms. Madej would die if she was
exposed to asphalt or chip seal, would that change your
medical opinions in this report?

(Id., 3350-3351.) Dr. Molot further opined that he did not
think chip sealing the road would cause cardiac arrest,
paralysis, or respiratory failure. (Id., PgId 3353.) Dr.
Molot also testified that he has no evidence that the
alternative products Plaintiffs prefer to chip seal would be
safe for Ms. Majed. “Q. Have you ever tested her for
exposure to any of these alternative products? A. There’s
no test available. Q. Okay. Have you ever seen her
become symptomatic around any of these alternative
products? A. I only spent two hours with her.” (Id., PgId
3389.)
Assuming arguendo that general causation was proved
(and the Court is not convinced that is), it is Plaintiffs’
burden to establish specific causation. “When specific
causation of an injury is at issue, the Sixth Circuit
requires that the expert conduct a ‘differential diagnosis’
in order to prove such causation.” Best, 563 F.3d 179;
Pluck, 640 F.3d at 678,
Tamraz, 620 F.3d at 674.
(Def. MIL, ECF No. 106, p. 4.) Plaintiffs assert that Dr.
Molot did a complete differential diagnosis, and they
offer an affidavit from Dr. Molot dated June 28, 2018 (Pl.
Response MIL, ECF No. 126, pp. 12-13.) Dr. Molot’s
affidavit states in relevant part:
I did complete a differential diagnosis in diagnosing
Ms. Madej with MCS as follows:

A. No.
Q. Do you believe Ms. Madej will die if the road is
chip sealed?
A. Extremely unlikely, maybe change extremely to
highly. Yeah.
Q. Have you ever seen a patient die from multiple
chemical sensitivity strictly?
A. Have I seen that? No.
Q. Have you ever seen a patient die from chronic
fatigue syndrome?
A. No.
Q. Have you ever seen a patient die from fibromyalgia?

I reviewed all the medical records for Ms. Madej as
well as other pertinent information regarding this case
(notably lab tests), and conducted an extensive history
from birth to present requiring more than 5 hours to
complete. That history included an environmental
exposure history. I also administered and reviewed
approximately 80 pages of validated and standardized
medical test questionnaires to assess other conditions as
well as function and disability and reviewed all
laboratory data (including blood work, an x-ray, and an
EKG which were performed on Ms. Madej at the
request of her treating physicians within a week prior to
the physical exam), all of which were used to identify
potential medical or psychological conditions that
would require further consideration. I conducted a
physical exam of Ms. Madej including vital signs,

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

7

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

evaluating her appearance and effect, mobility,
examining her eyes, ears, nose, and throat, performed a
NASA lean test, Romberg and tandem gait with
multitasking to rule out balance disorders. I listened to
her heart and lungs, tested her reflexes, conducted an
abdominal exam, and examined her skin. I examined
her joints and muscle strength and performed an
evaluation of tender points. She did not present with
edema or other physical findings at that time. I
observed her coordination, affect, mood, and body
language. Nothing from this examination, Ms. Madej’s
history, or the recent blood work and tests were
indicative of a need for further tests. The medical
condition has been present for many years. There were
numerous lab tests performed by medical practitioners
during these many years that were all normal indicating
no need to be repeated. I used case criteria to evaluate
her for multiple conditions, and eliminated a multitude
of possible explanations for her complaints.
*8 (Molot Aff., ECF No. 122, ¶¶ 16-17.)
Defendant asserts that Dr. Molot’s affidavit contradicts
his testimony. (Def. Response MIL, ECF No. 134, p. 2.)
To the extent that the affidavit contradicts Dr. Molot’s
prior testimony, such testimony is inadmissible. See
Compton v. Midwest Specialties, Inc., 142 F.3d 296,
302-303 (6th Cir. 1998). However, even if the affidavit is
accepted, it is insufficient to establish specific causation.
Dr. Molot’s affidavit states that “[t]he medical condition
has been present for many years.” Ms. Madej’s alleged
sensitivity to chip seal was first raised in 2015. There is
simply no medical evidence to support the assertion that
the specific chemicals in chip seal are the cause Ms.
Madej’s illness. “Specific causation establishes whether
the substance or chemical in fact caused the plaintiff’s
medical condition.”
Baker, 680 F.Supp.2d, at 874. As
the Sixth Circuit explained in Tamraz:

Calling something a “differential
diagnosis”
or
“differential
etiology” does not by itself answer
the reliability question but prompts
three more: (1) Did the expert make
an accurate diagnosis of the nature
of the disease? (2) Did the expert
reliably rule in the possible causes
of it? (3) Did the expert reliably
rule out the rejected causes? If the
court answers “no” to any of these

questions, the court must exclude
the ultimate conclusion reached.
See
Best v. Lowe’s Home Ctrs.,
Inc., 563 F.3d 171, 179 (6th Cir.
2009).

620 F.3d at 674.
Whether or not Dr. Molot attempted to conduct a
differential diagnosis, his testimony is insufficient to
answer “yes” to the reliability questions, and does not
supply the needed proof that the products in chip seal are
the cause of Ms. Madej’s injury. As the Sixth Circuit
noted in
Nelson v. Term. Gas Pipeline Co., 243 F.3d
244, 253 (6th Cir. 2001), “an association does not mean
there is a cause and effect relationship.” “Before any
inferences are drawn about causation, the possibility of
other reasons for the association must be examined,
including chance, biases such as selection or
informational biases, and confounding causes.” Id. More
is required than simply proving the existence of the
presence of a toxin in the environment – there must be
proof that the level of the toxin present caused the
plaintiff’s symptoms. Id. In the case at bar, “[t]here is ‘too
great an analytical gap between the data and the opinion
proffered’ for the court to admit [Dr. Molot’s] opinion as
testimony.”
Tamraz, 620 F.3d at 675-76. His
testimony is also insufficient to support a finding that the
proposed alternatives to chip seal would be safe for Ms.
Majed.
The Court finds that Dr. Molot’s causation opinions are
not reliable under the standards enunciated by Daubert
and, consequently, are inadmissible. Accordingly,
Defendant’s motion to exclude the opinions of Dr. Molot
is well-taken and is GRANTED.

2. Dr. Singer
Ms. Madej began treating with Dr. Singer in 2011.
(Singer Dep., ECF No. 81, PgId 1640.) Dr. Singer is a
board certified primary care physician who holds a
doctorate of Osteopathic Medicine. (Id., PgId 1631.) She
testified that, in the past, Ms. Madej has traveled by car to

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

8

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

her medical facility, and she examined her outside of the
building, on the concrete pavement, which ran from an
asphalt road. (Id., PgId 1660.) This protocol was used
because Ms. Madej thought the cleaning products, paints,
and carpeting inside the building would make her ill. (Id.,
PgId 1657.) Dr. Singer testified that she has never
examined another patient outside, before or since Ms.
Majed. (Id.) Dr. Singer testified that she does not have the
skill set to diagnose MCS. (Id., PgId 1663.) “I don’t know
the criteria for diagnosing multiple chemical sensitivity.”
(Id., PgId 1664.) For that diagnosis, she relied on Ms.
Madej’s statements and a letter from Dr. Lieberman.
*9 Q. You never spoke with Dr. Lieberman regarding
any of the tests he did on Miss Madej to assess her for
her claim of multiple chemical sensitivity?
A. No, I didn’t.
Q. And she never told you, hey, he did allergy testing,
prick testing?
A. No.
Q. She just presented and said, I have this?
A. Correct. And I did have the letter.
(Id., PgId 1665.)
Q. Did you ever test her for petrochemicals or organic
compounds?
A. I don’t even know where we begin with that, if mere
are tests that are accurate for that. That’s again in that
chemical sensitivity specialty that I don’t have.
(Id., PgId 1690.)
Q. What evidence do you have that external chemical
stressors caused these symptoms?
A. I have just the letter from Dr. Lieberman and her
reports.
(Id., PgId 1740.)
Q. So these symptoms that are characteristic of her
MCS, these are all subjective, meaning she reported
them, correct?
A. Right. So I’m looking at an ill appearing patient
who’s saying this is why, and this is what I’m
experiencing.

Q. But they were not objectively measured symptoms,
correct?
A. Because I don’t even know how you do that,
because it’s not my field.
(Id., PgId 1723.)
Q. Okay. And then you’ve concluded that if the road –
Cynthia’s road – has chip and seal or asphalt surface or
other surfacing that contains volatile organic
compounds or toxins, coupled with her weakened state,
that she’ll suffer physical harm or possibly death?
A. She may.... I don’t know what state she’s in now,
but back then she had just barely come through what I
though was a very frightening experience.
Q. What evidence do you have that any of that was
based on the use of chip and seal?
A. I don’t know that it was. I just think I you take a
vulnerable organism and you subject them to their
stressors, you put them at risk.
Q. But how did you know that those things were going
to stress her?
A. Because she had the diagnosis of multiple chemical
sensitivity from Dr. Lieberman.
(Id., PgId 1752.)
Dr. Lieberman testified that he did not diagnose Ms.
Majed as having multiple chemical sensitivity, as that is
not a diagnosis, but is rather a description. (Lieberman
Dep., ECF No. 91, PgId 2941.) As Defendant notes, Dr.
Singer testified that MCS or environmental illness is not
recognized by the American Medical Association, the
World Health Organization, or the ICD-10 (International
Statistical Classification of Diseases and Related Health
Problems or “International Classification of Diseases”), a
medical classification list of the World Health
Organization. (Def. Mot. S.J., ECF No. 117, p. 16 (citing
Singer Dep., ECF No. 81, PgId 1792-1793, 1767).) Dr.
Singer further concedes that she “does not have the skill
set” to speak to a diagnosis of MCS. Rather, she had
diagnosed Ms. Majed with, among other things, severe
anemia, lack of protein, and gastrointestinal orders. (Id.,
PgId 1674, 1686, 1748, 1784.) Regarding Ms. Majed’s
precarious health, Dr. Singer conceded, “I still don’t
know what caused all of this, you know, but something
did. Something caused all this.” (Id., PgId 1779.) This is

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

9

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

not sufficient information to support a differential
diagnosis. As the Sixth Circuit explained in Tamraz,
“testimony still must be judged by its methodology, not
its conclusion.”
620 F.3d at 675.
*10 As for the letter that she wrote to the County
Engineer recommending that construction or maintenance
activities not occur within one mile of the Madej home,
Dr. Singer concedes that the one mile distance paving
restriction was based solely on the request from the
Madejs. (Singer Dep., ECF No. 81, PgId 1790.)
Q. You never did any independent analysis?
A. No.
Q. You never went out and saw the property? They
said, a mile, and you put that in there?
A. Correct.
(Id.) Furthermore, when asked to opine about the list of
alternatives to chip and seal proposed by the Plaintiffs as
their preferred alternatives to chip seal, Dr. Singer
testified that she is not familiar with any of these
compounds. (Id., PgId 1755.) As Dr. Singer concedes, she
is “not a specialist in chemical sensitivity.” (Id., PgId
1799.)
While it is clear mat Dr. Singer is a caring physician, her
testimony is insufficient to support a finding of specific
causation that Ms. Majed’s illness is caused by the
chemicals in chip seal, and is also insufficient to support a
finding that the proposed alternatives to chip seal would
be safe for Ms. Majed. The Court finds that Dr. Singer’s
causation opinions are not reliable under the standards
enunciated by Daubert and, consequently, are
inadmissible. Accordingly, Defendant’s motion to
exclude the opinions of Dr. Singer is well-taken and is
GRANTED.

91, PgId 2897.) Dr. Lieberman testified that MCS is not a
diagnosis, but it is a description. (Id., PgId 2941.) He
explained that he “did not diagnose [Ms. Madej]. There is
no diagnosis of multiple chemical sensitivities ....” (Id.,
PgId 2961.) The only time Ms. Madej appeared at the
Center in person was in 1999, and she was not seen by Dr.
Lieberman personally, but was seen by his colleague. (Id.,
PgId 2980, 2903.) Dr. Lieberman has treated Ms. Madej
via telephone, except for a hiatus in treatment from 2000
through 2006. (Id., PgId 3000.) Defendant asserts that it is
undisputed that, prior to 2015, Ms. Madej had never
mentioned a sensitivity to asphalt. (Def. MIL, ECF No.
107, p. 5, citing Lieberman Dep., ECF No. 91, PgId
3058.) Dr. Lieberman testified that the only testing
conducted on Ms. Madej at her initial visit consisted of
placing a substance he described as “petroleum derived
ethanol” under her tongue. (Lieberman Dep., ECF No. 91,
PgId 3086.) He did not test Ms. Madej to determine
whether she was sensitive to “asphalt”;
Q. Is asphalt a generic term?
A. Yes.
Q. So there are varieties of different asphalts, correct?
A. Yes.
Q. And they don’t all have the same chemical
composition, correct?
A. And probably each batch is probably different
because they’re rather crude materials.
Q. Did you ever administer any tests to determine if she
was sensitive to asphalt other than the discussions
we’ve had already?
A. No.
Q. Other than what you’ve told me about already?
A. Not specific to asphalt, no.
A. Only that asphalt is a petrochemical.

3. Dr. Lieberman
Ms. Madej’s primary treating physician, Dr. Allan
Lieberman, is the sole shareholder of The Center for
Occupational and Environmental Medicine (“Center”) in
Charleston, South Carolina. (Lieberman Dep., ECF No.

Q. Then how did you determine that the potential
exposure to asphalt could cause her to have respiratory
or heart failure or paralysis? How did you determine
that?
*11 A. Well, it didn’t say that’s specific to asphalt, did
it?

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

10

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

Q. Well, it says, work to maintain roads and/or to clear
vegetation poses a hazardous situation for this patient.
Exposure will cause her a wide variety of symptoms:
Migraines, shortness of breath, dizziness, heart racing,
and could create a life-threatening situation, respiratory
or heart failure, paralysis.

been exposed to the pesticide Dursban in the 1990’s, but
he did not know at what dose or for what period of time.
(Id., PgId 2986.) “[I]t’s the toxic exposure to
organophosphate pesticide that’s her diagnosis, and she
manifests all of these signs and symptoms related to that.”
(Id., PgId 2965.) However, Dr. Lieberman testified that
other tests also found arsenic:

A. Right.
Q. So what did you mean when you said that? That
doesn’t mean asphalt?
A. No, not necessarily because it also could be the
road. Many of the roads, for example, use herbicide in
order to take down the vegetation and clear.
Specifically, Ms. Madej in one of her letters
specifically talks about becoming temporarily
paralyzed from an exposure as she went past the field,
for example. Now, what was in that field, I do not
know. The suggestion was that it was an agricultural
product, most likely a pesticide.
Q. Okay. Have you -- do you know what products the
county engineer uses to maintain roads?
A. No, I do not.
Q. Do you know what products the county engineer
uses to clear vegetation on roads?
A. Specifically, no, I do not.
Q. Do you have any evidence that work to maintain
roads or to clear vegetation on roads would cause Ms.
Madej to have respiratory failure to the point of death?
A. I can’t answer that specifically except, based upon
my education, training, and experience, and especially
the latter, for example, I have many patients who have
become extremely sick as a result of herbicide and
chemicals that were sprayed in order to clear vegetation
from particular areas, especially utility poles which are
near their homes.
Q. Okay. And again, have you ever -- you never
observed Ms. Madej become extremely sick as a result
of herbicides, have you?
A. No. Only historically.
(Id., PgId 2925-2927.)
Dr. Lieberman testified that Ms. Madej stated she had

Q. Has blood work that’s been performed ever revealed
high percentages of toxic elements?
A. She underwent hair analysis and urine analysis
looking for heavy metals, and the only one that was
found was arsenic, and the arsenic is in her.
Unfortunately, it’s in all of us now because if we eat a
lot of rice – and she eats rice two to three times a day.
Rice, unfortunately, is heavily contaminated with
arsenic, and that’s what you’re picking up in Madej, for
example, with regard to the arsenic. Now, I did a
cholinesterase level on her, and ... I believe that
supports the fact that she’s constantly being exposed to
organophosphate pesticides....
(Id., PgId 2965-2966.)
Q. Is there any living environment that would be totally
safe for Ms. Madej, given her exquisite sensitivities?
A. No. Everything is relative.
Q. And you’re aware that there’s presently an
injunction on the road, correct?
*12 A. I think so, yes.
Q. But yet, Ms. Madej is still ill and continues to treat
with you, correct?
A. Yes.
Q. So is it possible that something else besides the road
is causing her to be ill?
A. Oh. It’s the entire environment which consists of a
lot of the pollutants we’ve been talking about here –
***
Q. She had a lengthy history of medical problems even
prior to 1999, it’s your testimony, correct?
A. Oh, yes.
***

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

11

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

Q. And when she came to you in 1999, you did not
believe the cause of her illness was asphalt, correct?
A. Correct.
(Id., PgId 2954-2955, 2957, 2961.) Dr. Lieberman
testified that one of the basic principles of environmental
medicine is the “concept of total load”:
Q. ... And we’ve had a lot of testimony regarding [Ms.
Madej’s] vulnerability. Does that have anything to do
with paving the road, though, from a medical
standpoint?
A. No. But one of the basic principles of environmental
medicine is the concept of the total load, and part of
that total load certainly would be nutrition, and
nutrition was a very big concern for us, as we noticed
that her weight – when I believe I looked was like 125
pounds. She’s 5 foot 7 ½, if I recall correctly, and so
she was sort of thin to being with. And then she goes
all the way down, I think, to maybe 107 or 117. So
she’s lost quite a bit of weight because she’s so
restricted in terms of what she’s eating, and that was a
big danger for her. And I noticed that Dr. Weirs,
probably in 2018 or ‘17, cautions her that she has to try
to eat even if she doesn’t want to.
Q. Yes. Absolutely. And again, her nutrient
deficiencies, they are not related at all to the substance
that the engineer uses on the road.
A. Yes. That’s correct.
(Id., PgId 2039-2940.)
Q. Do any of your other patients who have been
exposed to Dursban seek an accommodation regarding
paving a mile around their home?
A. Not to my knowledge.
Q. And is it conceivable that even if an accommodation
is provided, Ms. Madej could still be sick?
A. Yes.
(Id., PgId 2966-2967.)
Dr. Lieberman testified that he wrote three letters of
medical necessity in September 2015 at the request of Ms.
Madej. In his letter of September 2, 2015, he described
her as suffering from “severe chemical sensitivity” and

that she could be placed “in a life threatening situation by
even minimal exposures to common materials and
chemicals,
particularly
those
originating
from
petrochemicals.” Examples include heribicides/fertilizers,
pesticides, petroleum products such as tar and blacktop,
oil, fuels, exhaust, paints, varnishes and polyurethanes,
and smoke combustion by-products. (Id., PgId 3135.) The
letter stated that Ms. Madej should be contacted “a
minimum of three days before initiating any road
construction or maintenance activity within 1 mile of her
residence.” (Id.) The September 4, 2015 letter changes the
requirement from notification to restriction such that
activities must be restricted within one mile from her
home. (Id., PgId 3137.) Finally, Dr. Lieberman wrote a
September 10, 2015 letter of necessity, also requesting
that activities be avoided within one mile of Ms. Madej’s
home:
*13 To Whom It May Concern:
Cynthia Madej has been under my care for the past 15
years for severe chemical sensitivity from toxic
chemical exposure that has resulted in her being legally
disabled since 1997. Because of her sensitivities, she
can be placed in a life-threatening situation by even
minimal exposures to many common materials and
chemicals, particularly those originating from
petrochemicals. Examples of some of the concerning
chemicals include: herbicides/fertilizers, pesticides,
petroleum products such as tar and blacktop, oil, fuels:
exhaust, paints, varnishes, polyurethanes, and
smoke/combustion bi-products.
Work to maintain roads and/or to clear vegetation poses
a hazardous situation for this patient. Exposures cause
her a wide variety of symptoms (migraines, shortness
of breath, dizziness, heart racing) and could create a
life-threatening situation (respiratory or heart failure,
paralysis).
Avoidance of exposures is essential for Cynthia. She
cannot relocate from her residence to avoid exposure,
even for short periods, because she requires specialized
living conditions that cannot be easily replicated.
Remaining indoors with the windows closed does not
provide adequate protection against chemical stressors
because of the level of her sensitivity. At this time,
avoidance is the only viable protection.
To avoid risk to my patient, it is strongly advised that
activities be avoided within 1 mile of her residence. It
is also strongly advised that Cynthia is contacted prior

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

12

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

to a minimum of 3 days before initiating any road
construction or maintenance activity within 1 mile of
her residence.

1

(Id., PgId 3137.)
Dr. Lieberman testified that he believed the reason he
wrote the letters was to support Ms. Madej’s request for
an injunction. The letters were not based on new medical
evidence. (Id., PgId 2936.) Dr. Lieberman also conceded
that the one mile restriction on road paving was arbitrary.
(Id., PgId 2930.)
Plaintiffs assert that Dr. Singer and Dr. Lieberman, the
treating physicians, should be permitted to testify “like
any other witness,” that is, like a fact witness. (Pl.
Response MIL, ECF No. 125, p. 6.) However, the issue is
not whether Ms. Madej is ill. The issue is whether chip
seal caused or will cause her illness. The testimony is that
there is no safe exposure to any environmental pollutant
for someone as sensitive as Ms. Madej, and this testimony
would not help the trier of fact determine whether chip
seal will harm the plaintiff and whether she has proven
both general and specific causation.1 Additionally,
Plaintiffs assert that “[a]s to recognition by leading
medical authorities, at a 1996 World Health Organization
(WHO) conference, the conferees recommended that a
different term, Idiopathic Environmental Intolerance
(IEI), be used instead of MCS, and called for continuing
research on the condition.” (Id., p. 8.)2 However, this
information is not sufficient to meet the Daubert standard
for reliability as to long-term or permanent symptoms
arising from the exposure to a particular toxic chemical.
*14 The issue is the reliability of his opinion from a
legal perspective. And what science treats as a useful
but untested hypothesis the law should generally treat
as inadmissible speculation. As the Supreme Court has
explained, “[t]he scientific project is advanced by broad
and wide-ranging considerations of a multitude of
hypotheses, for those that are incorrect will eventually
be shown to be so.... Conjectures ... are of little use,
however, in the project of reaching a quick, final, and
binding legal judgment – often of great consequence –
about a particular set of events in the past.”
Daubert, 509 U.S. at 597, 113 S.Ct. 2786. “Law
lags science; it does not lead it.”
Rosen [v.
Ciba-Geigy Corp., 78 F.3d 316] at 319 [ (7th Cir. 1996)
].
Tamraz, 620 F.3d at 677.

2

After the state court granted the paving
injunction, Dr. Lieberman wrote a letter to the
County Engineer on February 26, 2016, stating
that the County should refrain from “spraying
chemicals within a three mile radius of [Ms.
Madej’s] above stated address.” (Id., PgId 3138.)

A condition described as idiopathic, meaning one
for which the cause is unknown, is by definition
not linked to chip seal asphalt or any other
specific chemical.

Defendant also asserts that Dr. Lieberman’s affidavit of
June 28, 2018 contradicts his testimony. (Def. Reply MIL,
ECF No. 133, p. 5.) To the extent that the affidavit
contradicts Dr. Lieberman’s prior testimony, such
testimony is inadmissible. See
Compton, 142 F.3d at
302-303. The affidavit attempts to clarify Dr.
Lieberman’s testimony regarding exposure levels.
(Lieberman Aff., ECF No. 121.) He states that Ms.
Madej’s sensitivity level is tied to small amounts, like
parts per billion. However, “the mere existence of a toxin
in the environment is insufficient to establish causation
without proof that the level of exposure could cause the
plaintiffs’ symptoms.” Pluck, 650 F.3d at 679. The
information Dr. Lieberman relies upon for this opinion is
based solely on Ms. Majed’s self-reports of when she felt
she had symptoms. (Lieberman Aff., ECF No. 121, ¶ 5.) In
any event, even with the additional information provided
in the affidavit, there is no differential diagnosis evidence
or other evidence sufficient to tie Ms. Majed’s numerous
symptoms and long years of illness to the chip seal at
issue. The Court finds that Dr. Lieberman’s causation
opinions are not reliable under the standards enunciated
by Daubert and, consequently, are inadmissible.
Accordingly, Defendant’s motion to exclude the opinions
of Dr. Lieberman is well-taken and is GRANTED.

B. Summary Judgment
Defendant moves for summary judgment, asserting that
Plaintiffs “have no evidence that the emissions from an
application of chip seal are injurious to the residents along
the road generally, and no medical evidence that it will
cause Ms. Madej’s alleged individual symptoms, or

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

13

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

further injury.” (Def. Mot. S.J., ECF No. 117, p. 2.)
Defendant’s motion is well-taken. In the absence of a
valid, scientific basis to support a finding of specific
causation, Plaintiffs are unable to establish a genuine
issue of fact for trial.
Count I seeks permanent injunctive relief to prevent the
paving of Dutch Creek Road with asphalt or chip seal.
(Third Am. Comp., ECF No. 16, p. 1.) The standard for
granting a permanent injunction requires that Plaintiffs
demonstrate “(1) that they will suffer a continuing
irreparable injury if the court fails to issue an injunction;
(2) that there is no adequate remedy at law; (3) that,
considering the balance of hardships between the
plaintiffs and defendant[ ], a remedy in equity is
warranted; and (4) that it is in the public’s interest to issue
the injunction.” Sherful v. Gassman, 899 F.Supp.2d 676,
708 (S.D. Ohio 2012), aff’d sub nom., Sherfel v. Newson,
768 F.3d 561 (6th Cir. 2014). Inasmuch as the Court has
ruled that the medical opinions are not admissible,
Plaintiffs are unable to establish a material issue of fact on
the first element of this claim, and the claim must fail.
*15 Claim II asserts civil assault and battery and/or
wrongful death. (Third Am, Comp., ECF No. 16, p. 5.) In
Ohio, an assault is an unlawful offer or attempt, coupled
with a present ability, to inflict an injury upon the person
of another. Woods v. Miamisburg City Schools, 254
F.Supp.2d 868, 878 (S.D. Ohio 2003), citing Daniel v.
Maxwell, 176 Ohio St. 207, 208 (Ohio 1964). Battery is
defined as “an intentional contact with another that is
harmful or offensive.” Gerber v. Veltri, 702 Fed. App’x.
423, 433 (6th Cir. 2017) (citing
Love v. City of Port
Clinton, 37 Ohio St.3d 98, 99 (Ohio 1988) ). Defendant
asserts that the claim is not yet ripe, because the County
has not proceeded with the paving project. (Def. Mot, S.J.,
ECF No. 117, p. 26.) However, an assault may be
supported by an offer, and certainly the planned paving
project could constitute an offer. Defendant notes that
chip sealing the road is not of itself unlawful, and
maintenance of the road is part of Defendant’s duties, see
Ohio Rev. Code § 5543.01(A). (Id., p. 28.) However,
Plaintiffs assert that the County is liable as a result of
“wanton, reckless, and/or bad faith exercise of discretion”
because Defendant “knows with substantial certainty that
its actions will bring serious physical harm or death to
Mrs. Majed.” (Third Am. Comp., ECF No. 16, ¶¶ 28-31.)
Inasmuch as the Court has ruled that the proffered
medical opinions are not admissible, the scienter
requirement for this claim is unsupported, and the claim
must fail.

Claim III seeks a declaratory judgment “to the effect that
should the defendant proceed with the threatened chip and
seal project on the section of Dutch Creek Road extending
from S.R. 550 to Stanley Road Mrs. Madej will suffer
serious physical harm or death and that the Defendant will
be liable for civil assault and battery and/or wrongful
death.” (Third Am. Comp., ECF No. 16, ¶ 33.) Inasmuch
as Claim II is unsupported, Claim III must also fail.
Claim IV asserts that Ms. Madej has been discriminated
against in violation of the Fair Housing Amendments Act,
42 U.S.C. § 3601 et seq., because of a failure to make
a reasonable accommodation for her disability. (Id., pp.
5-6.) Plaintiffs assert that there is a genuine issue of
material fact as to the reasonableness of the
accommodation sought by the Madejs. (Pl. Mem. Opp.,
ECF No. 120, p. 28.) The “three operative elements” of
the FHAA’s reasonable accommodation requirement are
“equal opportunity,” “necessary,” and “reasonable.”
Smith & Lee Assocs., Inc. v. City of Taylor, Mich., 102
F.3d 781, 794 (6th Cir. 1996). The first two elements are
closely related. The first asks “whether the requested
accommodation would afford the disabled resident an
equal opportunity to enjoy the property.”
Hollis v.
Chestnut Bend Homeowners Ass’n, 760 F.3d 531, 541
(6th Cir. 2014). The FHAA “links the term ‘necessary’ to
the goal of equal opportunity. Plaintiffs must show that,
but for the accommodation, they likely will be denied an
equal opportunity to enjoy the housing of their choice.”
Smith & Lee Assocs., 102 F.3d at 795 (citations
omitted). “The necessity element is, in other words, a
causation inquiry that examines whether the requested
accommodation or modification would redress injuries
that otherwise would prevent a disabled resident from
receiving the same enjoyment from the property as a
non-disabled person would receive.”
Hollis, 760 F.3d
at 541. There is simply no medical evidence to support
the assertion that the alternative proposed products would,
in fact, provide such redress.3 Inasmuch as the Court has
ruled that the proffered medical opinions are not
admissible, the claim must fail.
3

To the contrary, the medical evidence indicated
that no level of chemical exposure is safe for Ms.
Madej, and none of the doctors could testify that
the proposed alternative chemicals would be safe.

Claim V asserts that Ms. Madej will has been

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

14

Madej v. Maiden, Not Reported in Fed. Supp. (2018)
107 Fed. R. Evid. Serv. 822

discriminated against under the Americans with
Disabilities Act, 42 U.S.C. § 12101, et seq., because of
the County’s failure to make a reasonable modification to
accommodate her disability. (Id., pp. 6-7.) The specific
modification Plaintiffs seek is the use of an alternative
product to chip seal on the portion of Dutch Creek Road
at issue. Because there is no admissible medical evidence
to support Plaintiffs’ claims relative to chip seal, let alone
to support the safety of the proposed alternatives, there is
no issue of material fact, and summary judgment is
appropriate. Accordingly, Defendant’s motion for
summary judgment is well-taken and is GRANTED.
*16 Finally, the Court notes that Ms. Madej is quite ill, a
fact that is undisputed. As a citizen, her health is
important to officials serving Athens County. The Court
encourages the County Engineer to give Ms. Majed notice
far in advance of road work and to explore any remedial
measures which could reduce environmental emissions
near her home.
End of Document

IV. CONCLUSION
For the reasons set forth above, Defendant’s motion for
summary judgment (Def. Mot. S.J., ECF No. 117) is
GRANTED. The claims of Plaintiffs are DISMISSED
WITH PREJUDICE, and the preliminary injunction is
VACATED.
IT IS SO ORDERED.
All Citations
Not Reported in Fed. Supp., 2018 WL 5045768, 107 Fed.
R. Evid. Serv. 822

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

© 2020 Thomson Reuters. No claim to original U.S. Government Works.

15

